<html>
<title> - Lies, Bots, and Social Media: What is Computational Propaganda and How Do We Defeat It?</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


115th Congress }                            Printed for the use of the             
2nd Session    }      Commission on Security and Cooperation in Europe                       

======================================================================

	         Lies, Bots, and Social Media:
	         
	      What is Computational Propaganda
	     
	          and How Do We Defeat It?


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                         November 29, 2018

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2019





       Commission on Security and Cooperation in Europe
                  234 Ford House Office Building                                               
                   Washington, DC 20515
                      202-225-1901
                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b7a7b7b194b9b5bdb8fabcbba1a7b1fab3bba2">[email&#160;protected]</a>
                      http://www.csce.gov
                         @HelsinkiComm
                         
                         
                         
   
              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island                      
                         
 
               Executive Branch Commissioners
 
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]              

    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


         Lies, Bots, and Social Media: What is Computational

                 Propaganda and How Do We Defeat It?


                           November 29, 2018


                                                                        Page
                                  
                              PARTICIPANTS

    Mark Toner, State Department Senior Advisor, Commission on Security 
and Cooperation in Europe                                                   1                                   

    Paul Massaro, Policy Advisor, Commission on Security and 
Cooperation in Europe                                        16

    Matt Chessen, Acting Deputy Science and Technology Advisor to the 
Secretary of State, U.S. Department of State                                2

    Ambassador Karen Kornbluh, Senior Fellow and Director, Technology 
Policy Program, The German Marshall Fund of the United States               7

    Nina Jankowicz, Global Fellow at the Woodrow Wilson International 
Center for Scholars' Kennan Institute                                      11



 
		Lies, Bots, and Social Media: What is Computational.
		Propaganda and How Do We Defeat It?
                              ----------                              

                           November 29, 2018




    The briefing was held at 10:33 a.m. in Room 562, Dirksen Senate 
Office Building, Washington, DC, Mark Toner, State Department Senior 
Advisor, Commission on Security and Cooperation in Europe, presiding.
    Panelists present: Mark Toner, State Department Senior Advisor, 
Commission on Security and Cooperation in Europe; Paul Massaro, Policy 
Advisor, Commission on Security and Cooperation in Europe; Matt 
Chessen, Acting Deputy Science and Technology Advisor to the Secretary 
of State, U.S. Department of State; Ambassador Karen Kornbluh, Senior 
Fellow and Director, Technology Policy Program, The German Marshall 
Fund of the United States; and Nina Jankowicz, Global Fellow at the 
Woodrow Wilson International Center for Scholars' Kennan Institute.

    Mr. Toner. Good morning, and thanks to all of you for joining us 
for what I hope is just the start of an ongoing discussion on a topic 
that is increasingly relevant to all of us in the digital age, and that 
is computational propaganda and, more broadly, disinformation spread 
via digital platforms. My name is Mark Toner and I'm joined today by my 
colleague Paul Massaro.
    On behalf of the Commission on Security and Cooperation in Europe, 
a.k.a. the Helsinki Commission, and the commission's chairman, Senator 
Roger Wicker, I wanted to thank our three panelists today, each of whom 
are experts on the issue of computational propaganda and, more broadly, 
online disinformation--what it is, where it originates, how it works, 
and what we can do to stop it or at least better manage it, all, of 
course, while preserving our bedrock freedom of expression.
    It's been said we live in a post-truth world. Indeed, information 
technology has moved at such a pace that many of us have lost our 
ability to delineate between fact and fiction, a vulnerability that 
adversaries, either individuals or political groups or corporations or 
even, God forbid, foreign governments have sought to exploit. It's my 
hope that our discussion today will unpack not only why this is 
happening but also how we can best try to fix it.
    It's a conversation, of course, that has to include all the 
different players--that's industry, civil society, and government, of 
course--and employ technology and policy in new and creative ways. And 
while there's certainly plenty of blame to go around in our slow 
response to this threat, there are, I hope, real solutions that we can 
pursue that can return the internet to the promise of its early days.
    Our first speaker, Matt Chessen, is a career U.S. diplomat, 
technologist, and author who is currently serving as the acting deputy 
advisor in the Office of Science and Technology to the secretary of 
state. It's his job to connect State Department foreign policy 
priorities to research, development, and discoveries emerging from the 
high tech and private sectors. Matt also manages the development of 
policy portfolios for artificial intelligence and computational 
propaganda, and Matt's written and spoken extensively on the problem of 
computational propaganda and how to address it through AI [artificial 
intelligence] and other technology.
    Our second panelist is Karen Kornbluh, who is currently the senior 
fellow and director for the technology policy program at the German 
Marshall Fund of the United States. Karen was previously with the 
Council on Foreign Relations, where she was the senior fellow for 
digital policy. She also served as U.S. Ambassador to the OECD 
[Organisation for Economic Cooperation and Development] from 2009 to 
2012, where she spearheaded the development of the first internet 
policymaking principle.
    And our third panelist today is Nina Jankowicz, a global fellow at 
the Woodrow Wilson Center's Kennan Institute, who is currently working 
on a book about the evolution of modern Russian influence campaigns in 
Eastern Europe. She's also advised the Ukrainian Government on 
strategic communications, and her op-eds have been published in The New 
York Times and Washington Post, among others. She's also a frequent 
commentator on disinformation in Russian and Eastern European affairs.
    Each of our panelists will give brief remarks before we open it up 
to questions. They'll talk about different aspects of computational 
propaganda. Matt will give us a bit of history about why this is such a 
threat to our core democratic values, provide an overview of 
computational propaganda, bots, and AI, and then talk a bit about left-
brain right-brain solutions to the problem.
    Karen will give us more historical context--recent historical 
context on how we've gotten to this point, from the internet's early 
promise to today's algorithm-driven platforms. And Nina will talk about 
some of the platforms--what some of the platforms have done to address 
the problem, why it's not enough, and also offer some possible 
solutions. And then, of course, we'll have a discussion. We'll open it 
up to your questions.
    So, Matt, do you want to start us off?
    Mr. Chessen. Sure. Thank you, Mark, for the excellent overview and 
introduction.
    As Mark said, I'm going to start off by talking about the 
civilizational context for these issues. So we really need to ask 
ourselves, why do we care about computational propaganda, weaponized 
narratives. Why do we care about the possibility of a post-truth world? 
And I really like the answer that's provided by Arizona State 
University and it's also mentioned actually by General Michael Hayden 
quite a bit, and then it's these--the possibility of a post-truth world 
actually directly undermines the enlightenment ideals of the search for 
truth through reason.
    And so if you go back to the founding of our country, the Founding 
Fathers were Enlightenment Era thinkers. The Constitution is probably 
the most important Enlightenment Era document. And so the ideas in the 
Constitution set the foundation for modern democracy. These democracies 
are based on rule of law systems where the empirical thinking is really 
core to their functioning. And so facts and evidence are really 
critical for everything from administrative due process to judicial 
processes and evidence.
    So if we actually start getting into this post-truth world where a 
fact is just whatever you can convince people of, then facts don't 
matter and this is a direct threat to the evidence-based rule of law 
system that modern democracy is based upon. So I always tell people 
it's very important that we push back on this idea that we're in a 
post-truth world. There is an objective reality. Facts do matter. 
Expertise matters and evidence matters. If we do concede that we're in 
a post-truth world, then countries, organizations, or even people with 
very strong information operation capabilities and a casual 
relationship with the truth can hold inordinate amounts of power.
    So if you take the principle that democracy is the superior system 
and, based on evidence, people would come to that conclusion but you're 
in a post-truth world, then countries like Russia and China can 
convince their own populations and the populations of other countries 
that democracy is inferior to authoritarian rule.
    Some people speculate that the challenges we're facing with 
weaponized narrative and computational propaganda and disinformation 
spell the end of the enlightenment and I actually want to push back on 
that idea. We can go into this in more detail in the Q&A if everybody 
is interested but, really, the enlightenment was about the elites using 
truth and reason to push back on the established institutions of the 
time.
    What you're seeing now is really hyper-empowered individuals using 
technology to push back on the elites and push back on the institutions 
that they've been running for a long period of time. And so we've hyper 
empowered these individuals with really powerful informational tools 
but we don't yet have the systems and frameworks to ensure 
accountability and responsibility. We really don't have a lot of trust 
in the system.
    And so we've had over 200 years to create these checks and balances 
in everything from the government use of power to peer-reviewed 
research. But we've only had a few decades to create structures for the 
internet and social media. And so to illustrate how this works, I'd 
like to talk about what some people call the collective intelligence 
system.
    The collective intelligence system is the way that a society 
determines truth from fiction. In the mid-20th century, our collective 
intelligence system consisted of several major national newspapers, a 
rich local media ecosystem, a few national TV channels, government, 
academia, and the church, and that's how people basically filtered 
what's true from what's not true.
    But as the information channels have sort of exploded, confidence 
in these institutions have gone down and some of this is natural 
evolution just from the diversity of information outlets and some of it 
is actually manufactured outrage by some of the malicious actors out 
there. But the net result is that our collective intelligence system of 
how our society determines truth from fiction really is broken right 
now.
    Into that gap, malicious actors have stepped in and are using new 
technologies to create their own collective intelligence system. 
They're creating malicious collective intelligence systems, and what 
they do is they attract people into these systems with emotionally 
pleasing disinformation and then they keep them on an emotional hook 
and never let them go. And so this is what leads us to this idea of 
computational propaganda.
    So let's talk a little bit about what computational propaganda is 
and give sort of an overview of some of the techniques. The technical 
term for this is really online information operations. This comes from 
sort of a military term. But I like computational propaganda because 
it's good shorthand. Basically, what it refers to is the use of 
information and communication technologies to manipulate people's 
perceptions and influence their behavior.
    And so computational propaganda uses a variety of different 
technologies including big data. You have social media, you have 
autonomous agents like bots and, increasingly, you're starting to see 
artificial intelligence applications used. People like to focus on the 
bots but we really need to keep in mind that there's human beings 
behind all of this and there's human beings being affected by all of 
this, right.
    So the humans create the content. They circulate the content. 
They're driving the information campaigns, and that's what's really at 
the core in computational propaganda. It's this coordinated 
manipulative activity. And so bots are one tool but it's not the only 
tool that's used. But since it is something that people talk about a 
lot we'll talk about the bots.
    So bots have some advantages over humans that are based both in the 
technology and based in human psychology. Most of the bots that are out 
there are what I call dumb bots in that they are not artificial 
intelligence and, basically, what they do is they post content either 
on a schedule or in response to some sort of trigger, and this could be 
a news key word or it could be some sort of prominent person tweeting 
and then the bots will go and immediately retweet back.
    Generally, there's three different types of bots out there. So 
there's propaganda bots, and these are just trying to push content out 
in high volume. You've got follower bots, and the follower bots are 
trying to do astroturfing, and this is what's basically faking 
grassroots support. They are liking people or content or following 
people or content to try and push them up and game the algorithms that 
are determining trending topics, trending people, trending content.
    Then you have roadblock bots, which are really trying to undermine 
free speech, undermine free expression. A lot of this really started 
out with spamming hashtags where, you know, a group is trying to 
organize using a hashtag. Some other group will come in and basically 
just spam that hashtag with garbage so that they can't actually find 
the content they're interested in. But it also is used for mass 
intimidation, typically in combination with doxxing--releasing personal 
information--and then sort of targeted harassment. This happens a lot 
in authoritarian countries where an independent journalist will be 
reporting on something and then they'll get threats from it looks like 
tens of thousands of people who are saying, We know where your kids go 
to school, we know where you live, we're going to come kill them or 
kidnap them, and it basically pressures them into self-censoring their 
speech.
    So why do bots work? This is all rooted in human psychology, right? 
Bots are actually sitting behind social media accounts that typically 
look like the target audience they are trying to influence, and just 
from human psychology, people tend to believe people who look like 
them, act like them, or are sort of the same as them. And so if they 
see a bunch of bots that look like actual people, like people in their 
community, they tend to believe them more.
    People are also proven to believe ideas if they're endorsed in 
volume, right? So that's why astroturfing and gaming these algorithms 
is persuasive. People like and believe what they think other people 
like and believe. Bots can also undermine expertise. There are some 
studies that show that in information-rich environments ideals that are 
endorsed en masse by a group are more persuasive than ideas that are 
pushed out by experts.
    So there's lots of other techniques that computational propaganda 
plays off of, and I talk about this because we can't just talk about 
the technology. We actually have to talk about the science behind these 
things as well.
    So what's coming up next? We really need to think about what's 
coming up with artificial intelligence because there's a number of 
emerging technologies that are really going to significantly impact the 
information space.
    And I want to preface this with a statement that there's nothing 
inherently wrong about these technologies. There's nothing inherently 
bad about them. Technologies are neutral. It's really the malicious 
actors, the malicious intent, and the malicious effects that we need to 
focus on. So let's go through some of these technologies.
    So, AI chat bots--if you've never used a chat bot I'd encourage you 
to try one out. There' s a great one that's put out by Microsoft called 
Zo. There's been one that's been out in Mandarin for a year. It's 
called Xiaoice. Chat bots are basically bots that are able to have very 
human-like conversations and a lot of research shows that people 
develop very close emotional attachments to some of these chat bots. 
With Xiaoice, people used to proclaim love for Xiaoice. They'd say, 
Xiaoice, I wish you were a woman who--or a real girl who I could 
actually marry. They'd say, Xiaoice, you're my only friend who's 
available all the time, and people tend to have very high levels of 
engagement with these chat bots.
    There is also the emergence of these affective computing systems. 
And so these are systems that both can portray human emotions very 
accurately in either sort of avatars or just through text. But they can 
also detect human emotions. And so if one of these AI systems is 
interacting with you online, they can detect your emotional state and 
then target content based on that particular emotional state.
    Psychometric profiling is something that a lot of people know about 
now because of the Cambridge Analytica scandals. So this is the idea 
that with, really, relatively few pieces of data you can develop very 
sort of solid profiles of people and determine their political 
preferences, determine their personality, their sexuality. You can 
determine skin color from data. And so every American has somewhere 
between 2[,000] and 5,000 pieces of data that's just for sale through 
data brokers, and then we give the data away all the time on social 
media. And these can be used to, basically, build profiles that then 
can be used for very personalized manipulative content.
    Dynamic content creation systems are also an emerging phenomenon. 
AI systems are already being used to write news articles. If you've 
ever read a Minor League Baseball article it was probably generated by 
an AI from a box score from the game. There's also AI systems that are 
basically generating articles on company financial reports just from 
the SEC filings. You have AIs that are writing books and screenplays, 
which are not very good yet. [Laughter.] But they are actually 
producing some really good visual art that's starting to win contests 
and also some classical music and electronic music that's actually 
pretty good. You can hear that on SoundCloud if you want to.
    In combination with this sort of dynamic content generation is 
probably the phenomenon that I'm most concerned about, which is the 
audio and video manipulation tools, right. So right now, you can 
actually clone someone's voice and you can actually take existing video 
and make subtle manipulations to it that look very realistic and, you 
know, it's very easy to see how you could take an existing video that's 
out there on YouTube of a president or some foreign leader, subtly 
change the video, subtly change the wording in there, and completely 
change the meaning and cause some sort of crisis.
    A lot of people are familiar with sort of the deep fakes 
phenomenon. This was something where people basically created programs 
for mapping actresses' faces to pornographic actresses and then, as a 
lot of things do on the internet, it started out in pornography and 
then was being used in sort of other entertainment applications.
    People were using it to map Nicholas Cage's face to a bunch of 
different movies that he was never in. I think someone actually put 
Harrison Ford's face into the ``Solo'' movie, which was kind of an 
interesting one that I just saw, and then there's videos of actually--
that are dynamically generated where they've taken a bunch of photos of 
President Obama and an audio track of one of his speeches and then they 
can dynamically generate as many different versions of that speech with 
different vocal intonations, different backgrounds behind it.
    And so the ability to actually create this sort of pliable and 
artificial reality is really becoming sort of profound. I like to tell 
people, you know, that the machines are coming and they want to have a 
word with us, and we're entering into this era where a lot of the 
content and a lot of the speech online could be machines talking to 
people but also machines talking to machines, because those machines 
are going to be trying to influence people.
    But they're not going to be able to tell which accounts have 
machines behind them, and so you're going to have machines talking to, 
persuading, arguing with machines, and we could see the social spaces 
on the internet really sort of overwhelmed with this machine-driven 
speech and communication. So that could have profound impacts on sort 
of the democratic spaces for speech and conversation online.
    I do also want to just give an overview of how I like to think 
about some of the solutions to these types of problems. There's a lot 
of discussion out there about sort of the left--what I call the left 
brain, or the rational, solutions. And so these are things like media 
literacy training, teaching critical thinking, fact-checking tools, all 
these technology tools that are really around, really giving you more 
information about your information, right.
    And so I think these are all incredibly valuable and they're 
incredibly necessary, but we can't neglect the human element and the 
emotional element, and the reason that a lot of people consume 
disinformation is because it resonates with their identity. It's 
emotionally pleasing to them. And the example I like to use is this 
idea of what's going on with obesity.
    So we have an obesity epidemic in this country. Everybody knows how 
to lose weight, right, so you eat better and you exercise more, and we 
give people a huge amount of data and information about their food. If 
you go into a supermarket and look at any sort of package of food, 
there's a lot of data and information there. But it doesn't help the 
problem, right? It's not an informational problem. It has more to do 
with people's cognition, their psychology, and their emotion.
    So I think that's something that's really neglected in this space 
is really thinking about that. A lot of people just think, Oh, we'll 
just give people more information about their information and then 
they'll make the right decisions. A lot of this is tied into people's 
identity and a lot of it--I think some of the solutions to this of 
getting people to believe the truth is actually trying to communicate 
the truth to them in a way that doesn't throw up their identity-based 
or their value-based defenses.
    We need to combine these left-brain and right-brain solutions 
together and I think we need to build new institutions of democracy for 
the 21st century. So unlike these malicious collective intelligence 
systems, these would be positive democratic collective intelligence 
systems. These would be open, transparent. They'd include 
accountability. They'd be based on logic and reason. They'd be bottom-
up so they'd be democratically generated. But they also take into 
account the diversity of values, identities, and beliefs.
    I also want to remind people that this is actually critically 
important. You've got countries like China that are building social 
credit systems. They're integrating this into their computational 
propaganda systems. They're integrating this into their surveillance 
systems, which are increasingly being enabled by AI, and these systems 
are very effective at exercising top-down control over people.
    If they start exporting these systems around the world, you may get 
sort of serious competition that's highly enabled by technology that 
really enables this top-down authoritarian social control. And so we 
don't want that to become the de facto standard for the world. We need 
to think about what is the democratic alternative of that.
    So whether you call it weaponized narratives, computational 
propaganda, information operations, or simply disinformation, I would 
say that we are facing a serious challenge to democratic civilization. 
Now, I'm optimistic because I've been working on this for several years 
now and in the last couple years I've seen a state change in the amount 
of awareness, energy, and resources focused on these issues.
    But I am concerned and the problem is very serious. We don't want 
to underestimate the task at hand. We are engaged in a struggle for 
truth and reason that leads back to the very founding of our country 
and the creation of modern democracy.
    Thank you.
    Mr. Toner. That's quite an ending but----
    Amb. Kornbluh. That was great. That was great. Thank you.
    Mr. Toner. Over to you, Karen.
    Amb. Kornbluh. Thanks for having me.
    Mr. Toner. Sure.
    Amb. Kornbluh. This is really a great conversation. So I'm going to 
talk to you a little bit about some things that I wrote in an article 
for Foreign Affairs. And the reason I wrote the article is because I 
was being asked as somebody's who's been around the table for decades 
as internet policy was being made and was a big booster--and still am a 
booster of the internet--how could I be saying that we needed to have 
more regulations--how could I be critical? And I wanted to go back and 
look at what had been our beliefs at the beginning. What did we do to 
set up the policy framework of the original internet? And why are we in 
a different place now?
    So I'm going to start by just telling you a little story. So 
there's this University of Wisconsin researcher and she--Young Mie 
Kim--and she collected ads in the 2016 election. She had people tape 
what they were seeing--they were being micro targeted--and send it in 
to her, and she was combing through it after the election and she just 
found these horrific, horrific ads. And she would try to trace them 
back and figure out who had sponsored them, had they reported to the 
FEC, did they have a website, had they filed with the IRS, and a bunch 
of them had just disappeared.
    She found one set. They pretended to be travel spots and they would 
show you--I wish I had a clip of it--they would show you Paris and 
purport that Paris was now under Sharia law, and they showed the Mona 
Lisa covered up and, you know, the Eiffel Tower with a big sign in 
Arabic on it. And it looked like a travel ad and it just had a little 
clip that it was sponsored and she found out that it was sponsored by a 
group called Secure America Now, and that was a dead end. And it was 
only because another group, a watchdog group, Open [Secrets]--
opensecrets.org contacted the accountant for the group who mistakenly--
he didn't have to do this--sent the IRS filing unredacted that they 
found out that this was funded by the Mercers.
    So I just want to tell you this story to say that there's something 
wrong in this environment that is supposed to bring more transparency 
and democracy to all of us when you can have that kind of deception and 
lack of transparency.
    So how did we get here? So a lot of people think that the internet 
was immaculately conceived in garages and dorm rooms with no policy 
whatsoever. But, in fact, regulation was there from the beginning to 
allow it to--allow these entrepreneurs, allow these brilliant engineers 
to do what they did. In the Clinton administration they called a lot of 
the steps to create the early framework deregulatory, but actually it 
was pro-competition, pro-openness.
    So what do I mean? In the Communications Act of 1996, they made 
sure that the underlying telecommunications network would allow the 
connection of competitive networks. There were spectrum auctions that 
were contained in the Budget Reconciliation Act of 1993. AOL was 
allowed to connect to the underlying network without paying the prices 
that the long distance carriers had to pay. Otherwise, you would have 
had to pay a permanent charge for sending an email.
    There was a limited liability system that was set up for internet 
platforms. It's referred to as Section 230 of the Communications 
Decency Act. What it said was we want these platforms to take down 
incendiary stuff, stuff that's bad for kids, stuff that violates laws, 
but if you do that, platforms, you won't be considered a publisher so 
go ahead and do it. And what that's meant over time is that they can't 
be sued. They're not liable for the information that's on there, and 
the idea of that was we want this to be a neutral platform. We don't 
want a lot of friction in the system. We want everybody to be able to 
speak, and that was the original intention.
    On privacy, we have these global principles that came out of the 
U.S. and were adopted in Canada and then the OECD socialized them--the 
fair information policy practices that, again, are very based on notice 
and opt in--and then we had this whole multi stakeholder system where 
we said instead of having government figure out the ongoing rules we're 
going to have this very dynamic system where civil society and 
engineers and so on set the rules for the internet.
    So that was the original idea is that we're going to have this--the 
internet is going to be this competition of the underlying technology 
space. It's going to be open. Everybody can be a speaker. And at the 
beginning, it was incredibly exciting and it still is. I mean, people 
were putting up blogs. Dissidents were able to speak. It was really 
giving voice to the voiceless and power to the powerless and that was 
very, very exciting.
    But as time went on, as these technologies do, it became much more 
centralized. So if you look at the social media networks that dominate 
the internet now, there very much is an intermediary, right. There is 
a[n] algorithm that mediates which of your friends' postings you see, 
which of the people that you follow on Twitter you see. This algorithm 
is determined in order to keep you engaged so that you're online 
longer, so that more ads can be served to you. So this ad revenue-
driven system, this algorithm, really mediates your experience. It's 
much less that I communicate to anybody I want and they communicate 
back.
    That story about Secure America Now tells you there's a lack of 
transparency. You didn't know until recently, often, whether something 
was an ad. Now you know it's an ad but you don't know necessarily who 
it's coming from. You don't know what kind of data is being collected 
from you. You don't know who's--whether you're being micro targeted. 
You often don't know if you're talking to a bot or a human. There are 
fake accounts or these closed groups. So there's a real lack of 
transparency in this system whose primary value is, really, 
transparency.
    So there were efforts along the way to update a bunch of policies 
but they faced obstacles. So the Federal Trade Commission wanted to get 
rulemaking authority. But it was taken out of a bill. The Obama 
administration proposed a Consumer Privacy Bill of Rights that didn't 
get adopted. The FTC, as we all know now, negotiated consent decrees. 
The one with Facebook really anticipated a lot of the problems that we 
saw with Cambridge Analytica. But the FTC doesn't have the resources, 
the manpower, the ability to pay people so that you get sophisticated 
computer scientists to really follow up on that. The FTC doesn't have 
subpoena power.
    On the campaign spending side, where you could have caught a lot of 
this stuff if you'd had some of the same kinds of rules as you do on 
broadcasting but they'd been updated, the FEC--the Federal Election 
Commission--completely deadlocked. The IRS--I don't know if you all 
remember this pseudo-scandal under Obama of the IRS was supposedly 
being biased in looking at charities and whether they were involved in 
politics.
    What that was really about was after Citizens United corporations 
were allowed to play in politics, and through a series of IRS and FEC 
decisions, charities, which don't have to disclose their donors, got 
more and more and more involved in politics. The IRS was really trying 
to check that. That failed, and so that's a dark money loophole as well 
for advertising online and various activities online.
    And then in the competition space, we have this focus on consumer 
prices in the anti-trust space, and so that doesn't really do much for 
you when you're in an environment where things are free. So the FTC 
approved Facebook acquisitions of WhatsApp and Instagram. There's no 
portability interoperability like there is with telecom.
    When I was at the OECD, we negotiated these internet policymaking 
principles. And the idea was, just as you were saying at the end, we 
want to have free flow of information. We want to have human rights 
principles, free expression. Let's not constrain that. But, certainly, 
governments--individual national governments can set up policy 
frameworks. But, unfortunately that wasn't followed up on very much.
    And then we haven't had the kind of, just stepping back, the big 
picture conversation that we had when broadcast came into being, even 
about newspapers at the turn of the century. What is the purpose of 
this new media and how is it going to further democracy as opposed to 
undermining democracy?
    So when it came to broadcast television we said, well, we're going 
to have a different First Amendment approach to it because they're 
using the public airwaves, and so we're going to have a public interest 
requirement for broadcasters and we don't want them to step all over 
local news so they're going to have to air local news. They're not 
going to do certain things in the family hour. They're going to cover 
both sides. They're going to have to say when it's an ad. They're going 
to have to provide information to political opponents so they can get 
the same price for ads.
    We had a whole conversation about it, and then we constructed 
public television to get at some of what you were talking about--what's 
the positive that we want--and they funded public broadcast stations 
and CPB did the content. In the case of cable, we got C-SPAN. So we've 
had these kinds of big societal debates about what's the purpose of a 
new media in a democracy and we haven't had that conversation.
    So the problem is that we're left with the situation that Matt was 
describing and I just want to highlight two things--two misconceptions 
that people have about what goes on online. I think they think that the 
internet reveals politics as they are. So you'll hear people say that 
how are we to know that when we connected people there would be bad 
people and our politics is broken. We just really have to fix our 
politics.
    But the internet really changes politics and I think it's really 
important to pay attention to that. So how does that work? Well, it 
influences smaller numbers of--it augments and makes seem louder and 
bigger smaller numbers of voters in smaller states. There are very few 
media sites--supposed news media sites that are responsible for much of 
the fake news--that we see all over the internet.
    So the Knight Foundation found that just 10 sites were responsible 
for 65 percent of the fake news and conspiracy site links that appeared 
on Twitter during the 2016 election. So the long tail is amplified. You 
get a sense of fake consensus. You join a group--a fake group. Let's 
say it's Blacktivist, which was a Russian group, or the Tennessee GOP 
had a fake site that was run by the Russians. You joined the group.
    It sounds like you. It's posting things that feel familiar, and 
then gradually it radicalizes you--and this happens with the YouTube 
recommendation algorithm as well. They call this affinity fraud. You 
feel like you're in a group but you're not really in a group. So it 
creates this fake consensus and, as I said, it changes politics. We 
have this idea of astroturf in politics--you know, something that 
pretends to be grassroots but it's really astroturf. This is astroturf 
on steroids.
    So there are a bunch of solutions. What I'd like to see [are] 
solutions that really focus on transparency. The initial value of the 
internet was really openness and transparency, and I hate to see 
discussions where it's presumed that the only solutions have to do with 
the government coming in and deciding what's true and what's not and 
who can speak and who can't, or Facebook or Google deciding who can 
speak and what's not. I think a lot more transparency. I think we're 
not aware of how much centralization and lack of transparency there is.
    So I'll give you a couple of examples. The Honest Ads Act was 
introduced by Warner and Klobuchar and McCain. It has not passed into 
law. The platforms have said that they've built these ad transparency 
data bases. Jonathan Albright has just recently published showing all 
kinds of problems with even what's contained in the data bases.
    But I'd like to see them go even further and have almost a ``know 
your customer'' kind of procedure, so that if you're Secure America Now 
it's not just the front group that's listed in the ad transparency, but 
they have to find out who's funding Secure America Now. If you want to 
advertise online, we need to know who's funding you and that's--if you 
look at the law, McCain-Feingold, that was a provision that's in there 
that hasn't actually been validated by the Supreme Court. The Supreme 
Court has usually found transparency to be of value in political 
speech.
    Another example I just want to throw out there on the news media 
piece--when you pick up The New York Times, there's all kinds of 
metadata, if you will, that you don't think about. They've separated 
out what they claim to be news and what they claim to be opinion, and 
there's a legal basis for that. You can sue them if something that they 
claim is news is defamatory. That's less likely on the opinion. So you 
know that you can trust what's in the front of the paper more than the 
back because of this legal scheme. They have a masthead that says who 
their publisher is, who their editors are. There's a byline on the 
article. You know what their sourcing scheme is because there's 
generally accepted practices.
    When you see an article online, all of that metadata is stripped 
out. You just see an article--it's from The New York Times. It's from 
Breitbart. It has the same font. You don't know if they're claiming--
often a Breitbart article will sound like news but it's actually--
they've put in a couple of woulds and coulds so that if you ever tried 
to sue them they would say, Oh, no, no, no, it's opinion, or it's 
satire. You don't know often who's written it. You don't know what the 
sourcing scheme is, who's paying for it, who's editing it, and what 
procedures they're using.
    So, again, in a mode of transparency, what if the platforms 
whitelisted outlets that actually followed a certain procedure--
commonly accepted journalistic procedure about transparency so you 
could know that these outlets actually follow the systems and you could 
find that information. That would do--I think that's sort of in between 
your two ideas of emotional and informational is let's give a user 
interface that really helps people understand, gives watchdogs 
information so they can present a narrative about what's going on.
    So those are the kinds of things. I have a bunch of other ideas on 
that score. But I think we just really have to move away from this idea 
that the only way to fix the problem is by going right to content. 
There's a lot we can do in terms of transparency and empowering users.
    Mr. Toner. Nina.
    Ms. Jankowicz. Thanks for having me. It's really an honor to be 
here with such a distinguished panel, and that was a great segue, 
Karen. So thank you for that.
    So from calling the influence of malign foreign actors on our 
electoral discourse and processes a ``pretty crazy idea''--that's a 
quote from Mark Zuckerberg in 2016--to inviting regulation, however 
begrudgingly, the social media platforms have come a long way since 
2016. Facebook, Twitter, and Google have made political advertising 
more transparent, creating searchable data bases of political ads, and 
have tightened restrictions on who can purchase them.
    In order to reduce the amount of fake news being spread by ads, 
Facebook has updated its policies to block ads from pages that 
repeatedly share stories marked as false by third-party fact-checking 
organizations and Twitter's policies no longer allow the distribution 
of hacked materials. Facebook has attempted to increase authenticity 
and transparency around the governance of pages as an influence 
vector--which were an influence vector of Russia's internet Research 
Agency in 2016.
    It claims that administrators of pages with large audiences undergo 
extra verification in order to weed out fake accounts, and Facebook has 
also made other adjustments to arm users with information about the 
pages that they follow. All of the platforms have made adjustments to 
their algorithms in order to attempt to combat the problem of 
disinformation. Facebook did this by focusing on content from, quote, 
``friends and family'' while Google's Project Owl changed the search 
engine's algorithm to surface more, quote, ``authoritative content.''
    And Twitter has reverted its newsfeed to a more chronological 
timeline with less algorithmic intervention. Facebook and Twitter have 
also invested more in content moderation to identify and remove content 
that violates platforms' policies, including those related to false 
information, fake accounts, and hate speech. This is not an exhaustive 
list of the changes that they have made in the past 2 years but, 
rather, an overview of the more well-known and purportedly messianic 
features meant to deliver us from all means of internet evil.
    But I'm here to tell you that they are not enough. Among the 
features that I've just described, loopholes have been exploited, 
missteps unforeseen, and pernicious disinformation allowed to flourish 
to a point where there's no question in my mind that social media self-
regulation has been a failure. Just a day before the midterm election, 
over a hundred Facebook and Instagram accounts likely controlled by the 
IRA [Internet Research Agency] were still active and Facebook only 
removed them after a tip from the FBI.
    This is a more complicated problem, as my panelists--co-panelists 
have alluded to, than just playing whack-a-troll or removing fake 
accounts and increasing transparency on political ad buys. These 
measures are, of course, first steps toward ensuring authentic healthy 
online discourse. But even a cursory look through the performance 
metrics of the ads released by the House Democrats after 2016 reveals 
that plenty of the 2016 IRA disinformation performed very well 
organically. Because the IRA had, over time, built trust and community 
with their audience of sometimes hundreds of thousands of users per 
page, many people saw and engaged with that content without the 
purchase of a single ad.
    Today, a lot of this type of content is spreading through 
Facebook's groups, which the platform's algorithms prefers based on the 
misguided understanding that they promote content between friends and 
family, and these are not subject to the same level of content 
moderation that public content is.
    Yes, of course, groups are means of connecting people, but they're 
also breeding grounds for disinformation due to their privacy settings. 
Closed and secret groups are not searchable or transparent and the 
content shared in them is only visible to members so Facebook is less 
likely to moderate the content within them. What's more, the platform 
still incentivizes and promotes this group activity.
    Groups were a key vector in my investigation for BuzzFeed News into 
fake profiles supporting an independent candidate for Senate in 
Massachusetts. A number of fake persona[s] controlled not by lines of 
code but, as Matt pointed out earlier, by humans and thus able to slip 
by some of Facebook's detection tools for fake accounts would astroturf 
groups with posts in favor of their candidate, creating the guise of 
grassroots support for the campaign. And Columbia University's Jonathan 
Albright has also researched how groups support the spread of 
disinformation on Facebook, and he's noted that banned groups and pages 
and brands such as Infowars often move their activity to closed groups 
after their public pages have been banned.
    Finally, the spotty and opaque enforcement of platforms' terms of 
service including with brands like Infowars, which have a record of 
spreading hate speech and disinformation, undermines the entire 
discussion of content moderation to begin with. Legitimate voices are 
often being silenced for small infractions, such as repeated uses of 
profanity, while groups with more considerable public reach that are 
violating much more serious clauses of the platforms' terms of service 
are allowed to continue their diatribes until public outcry becomes too 
great.
    And to that end, transparency around take downs, as Karen 
mentioned, has been lamentable. While Twitter has released the entire 
archive of take downs related to state-backed activity on its service--
and that's a very good move, in my opinion--Facebook releases this 
content only selectively. For instance, we don't know how many fake 
individual profiles they've removed since 2016 related to, for 
instance, the IRA or Iran. They only talk about pages, which is a 
problem. And Google really never releases this information and this 
contributes to the opacity of the problem and both the congressional 
and public lack of understanding of how best to solve it.
    But I do believe that, especially with the new Congress coming in, 
there's an opportunity to join together in a bipartisan manner and 
address this issue, and I have a few ideas about where this might 
start. I agree with Karen that the Honest Ads Act needs to be passed 
and I think it should be passed before 2020. There's no reason that 
online political advertising, which, in 2018, saw at least a 200 
percent increase in spending compared with the 2014 midterms, should be 
subject to different rules than TV, radio, and print ads.
    The sooner these rules are harmonized across platforms, including 
smaller online advertisers--right now, the legislation focuses on kind 
of the big kahunas and I think we need to talk about the smaller ones 
as well--and integrated with existing FCC and FEC regulations, the 
safer and more equitable our electoral processes will be. But as I 
noted earlier, regulating advertising only covers a fraction of the 
malicious information shared on social media. So I believe that 
Congress should really push for more transparency surrounding groups, 
pages, and some of the fronting organizations that purchase ads, as was 
mentioned before.
    And, further, I think Congress should explore the establishment of 
a specialized independent regulatory or oversight mechanism that could 
harmonize definitions of concepts like hate speech, abuse, and 
disinformation across the internet because right now all of the terms 
of service define these concepts differently and that makes it 
extremely hard to implement an overarching solution related to them.
    They ought to define and require that platforms obtain informed and 
meaningful consent to terms of service, serving as an awareness-
building mechanism about data privacy issues and the limits of speech 
on the platforms, because they are not free speech zones. They are 
private platforms. They could also serve as a neutral appellate body 
for users who feel their content has been unjustly removed, which right 
now there is a really limited appeals process, as well as conduct 
public audits of algorithms, account take downs, and data stewardship.
    And then, finally, Congress also should consider the role of 
education, in particular, media and digital literacy, critical thinking 
skills and civics, and I totally agree with Matt's point that this 
needs to be considered from an emotional point of view as well in 
protecting online discourse and empowering citizens. Congress could 
consider earmarks for grants for educational initiatives in this area. 
I detailed a lot of this in testimony before the Senate Judiciary 
Committee earlier this year, so you can look that up if you're 
interested. \1\
---------------------------------------------------------------------------
\1\  https://www.c-span.org/video/?c4735072/nina-jankowicz-testimony-
senate-judiciary-committee; https://www.judiciary.senate.gov/imo/media/
doc/06-12-18%20Jankowicz%20Testimony.pdf
---------------------------------------------------------------------------
    But I'd also be interested in exploring the use of taxes or fines 
paid by social media companies to fund such initiatives. The U.K. is 
looking into this right now. Ultimately, these are generational 
investments and ones that Congress needs to begin now because no 
regulatory or oversight solution can be complete without an informed 
and discerning electorate, in my opinion.
    Finally, I think it's just important to note the critical awareness 
building and oversight role that Congress can play even without the 
passage of new legislation. It was pressure from investigative 
journalists and Congress that led the social media platforms to begin 
to reform over the past couple of years and that should continue in the 
new Congress.
    Thank you very much.
    Mr. Toner. Thanks very much. Those were three very good and very 
comprehensive presentations. I don't know if I should run from the room 
screaming with some of the--you certainly broadened my awareness and 
I've covered or looked at this issue for many years. But the extent of 
the sea change, however you want to frame it--seismic change--in the 
way we communicate is sometimes overwhelming.
    I'll start with a question. Someone said--you've addressed it, 
Nina, and then others as well--but to what extent is this a question of 
a lack of competition in the industry and, really, a lack--because of 
that lack of motivation on some of these companies to make the kind of 
changes such as greater transparency, such as sourcing political ads in 
a way that show where they come from and what--and kind of buyer 
beware, readers can see where they come from--to what extent is the 
problem that, that you've got a few companies who dominate the space as 
opposed to the internet of the 1990s where it was just big open space 
that everyone thought would bring greater freedom of expression and 
what not?
    And my second question is maybe best to you, Matt, but others can 
chime in, is how close are we with AI to having the tools to look at 
content and trace it back to where it's coming from and provide that 
transparency to users?
    Mr. Chessen. Okay. So I'll talk about the second one first. So on 
AI there [are] various aspects to this. When you're talking about the 
automated detection of malicious behavior, this is something where 
there is a lot of advances in this area. There's a lot of companies out 
there now that are--their business model is basically around helping 
companies and organizations identify this coordinated manipulative 
behavior and they're using AI and machine learning techniques to do a 
lot of this.
    I heard a statistic from Twitter that just a couple years ago they 
were only filtering about 20 percent of the accounts that were 
suspended using automated tools. The rest were, basically, filtered and 
reviewed by people. Now it's about 95 percent, and of that 95 percent, 
75 percent of those accounts are actually suspended before they even 
push out one tweet. So they're actually able to identify patterns of 
behavior that are highly correlated with this malicious behavior before 
people are even pushing out content. So there's a lot more use of these 
types of tools.
    Now, the problem is that when you're actually going and looking at 
the content--so a lot of the success in this area is in a very content-
neutral type of way. They're using these tools to really identify these 
patterns in behavior where different accounts that may not seemingly be 
connected to each other are in fact engaging in coordinated 
manipulative activity and some of these platforms are actually changing 
their terms of service to specifically ban that type of activity.
    They're not necessarily looking at content in the first instance. 
There's a lot of challenges with that because AI systems just aren't 
that good at extracting meaning yet from the content. And so this is 
going to develop over time. The problem we have, really, right now is 
either over fit issues or under fit issues, right.
    So you're either basically suspending accounts for journalists who 
are talking about ISIS as well as the actual people that are promoting 
the ISIS ideology, or you have an under fit issue where you're not 
getting enough of the extremist content that's out there, right, or 
enough of the disinformation that's out there.
    So this is when we start filtering based on content that's sort of 
fraught with problems, right. What we don't want to do in this case is 
do anything that censors legitimate speech, and we don't want to 
undermine free expression online. But anytime you're starting to make 
decisions about this content is good, this content is bad--Karen, you 
mentioned sort of this whitelisting, blacklisting--I think if you do 
that off of objective criteria that's one thing. If you start going 
into what the content is and making content decisions, that becomes a 
lot more problematic, and right now AIs are just not good at figuring 
out what the meaning is in content well enough to have sort of these 
automated filtering tools that are just going to basically--that's not 
going to solve the problem for us.
    Amb. Kornbluh. Just a minor addition to that. I think that's why 
it's useful, what I was trying to say, is to focus on the outlet rather 
than the content and the practices of the outlet, and even better, 
transparency as a key practice of the outlet so that you're not doing 
that. I think the problem with what they're doing is it doesn't get at 
some of these issues where the First Amendment talks about the press 
and I think online we treat the press as just another speaker, and I 
think having a legitimate press as part of our information integrity is 
incredibly important.
    And if you have an outlet like the Daily Caller, the Koch Brothers, 
apparently, fund--this just came out over the weekend--close to 100 
percent of the Daily Caller Foundation, which supplies the content for 
what's, in large part--not completely, not every piece of content on 
there is false--but a lot of conspiracy theories. The birther stuff 
came out there, the caravan stuff. We don't want to be looking at the 
content and saying, this is false--this is true.
    But you step back and that outlet functions in a very different way 
from what we consider traditional press and we have to have some 
objective fashion to get these--these platforms should welcome some 
objective fashion of getting them out of the business of deciding 
whether or not an outlet like that is going to be treated exactly the 
same as the Washington Post or The New York Times. But they haven't 
welcomed that and so now they're up in front of the Judiciary Committee 
again, being accused of censoring.
    Ms. Jankowicz. One quick update. On my way here, I saw that 
Facebook has now updated its ad policies related to publishers, so news 
organizations that are buying ads to promote content related to 
political or issue organizations. So they're no longer going to be 
subject to the same disclosures, which is a good development. It should 
have been that way to begin with and I'm glad that they've heard the 
outcry.
    On the AI point that Matt was talking about, there are a couple of 
examples of AI false positives related to the ad transparency that I 
have seen. There was a researcher who is at the University of 
Pittsburgh, I believe, who has a podcast about Russia and was talking 
about how Russians view Trump, and he was not allowed to place that ad 
for his podcast because it had the words Russia and Trump in it, and 
even when he appealed a number of times to a human being, still, he was 
not allowed to place that out without becoming a certified political 
advertiser. So that's one of those wrinkles that the platforms don't 
seem to be keen to figure out.
    And then going back to Mark's initial question about whether these 
platforms just have too much market share, I certainly think it's a 
problem. In preparing for this panel, I read a little bit about the 
jurisprudence related to antitrust law, and Karen touched on it. It 
seems like new regulations are going to need to be developed if there's 
any way forward in that regard.
    Karen, maybe you want to speak about that a little bit. I don't 
know. [Laughter.] It's a big thorny issue. It certainly seems to me 
that Facebook should not have the market share it has not only with its 
billions of users but with WhatsApp and Instagram under its wings as 
well. And that's all I'll say about that.
    Mr. Chessen. I just want to mention that point on lack of 
competition. I mean, I think I haven't made up my mind on this one. But 
I would like to point out, you know, who remembers MySpace? Who 
remembers Friendster, right? So they dominated--I'm surprised. It looks 
like a younger crowd tonight. [Laughter.]
    So, you know, they dominated the social media space and then 
Facebook came along and out-innovated them. And I don't see necessarily 
major obstacles to other companies coming in and out-innovating 
Facebook. I think there are some concerns around sort of things like 
data portability, right, and the fact that probably one of the most 
valuable things about Facebook for a lot of people is just the network 
of contacts that you build and that would be very hard to replicate on 
any other platform.
    So I think there are things that can be done in maybe a regulatory 
context or, you know, through legislation that could basically improve 
the opportunities for other companies to basically have the ability to 
innovate and compete. But I am also not necessarily convinced that 
Facebook and Google or Twitter or anyone else is not vulnerable to the 
type of disruption that Friendster and MySpace experienced.
    Mr. Toner. Paul.
    Mr. Massaro. All right. Great. Well, thank you all so much. I have 
two sort of totally unrelated questions, so I'd like to ask the first 
and then get some answers, if anyone wants to bite, and then I'll ask a 
second.
    And my first actually deals with an innovation topic, and that's to 
say: You know, it seems to me like a lot of the issue is how these 
platforms are monetized and that was through ads, right, essentially 
through the use of user data in some capacity. As consumers sort of get 
hip as to what's going on and as platforms come under fire for 
exploitation, have we seen any trend toward subscription-based models, 
other forms of alternative monetization that would sort of reduce the 
problem in just kind of like a, just a standard sort of creative 
destruction kind of pattern? I know WhatsApp at some point had like--
you pay a dollar a year. And obviously it's hard to do ads with an end-
to-end encrypted service, even if it's owned by Facebook.
    Ms. Jankowicz. I think I would say we've seen kind of the opposite, 
at least in Europe, with the GDPR [General Data Protection Regulation] 
regulations, in which people can opt out of their data being used for 
advertising and still use the service. In fact, it's a requirement of 
the legislation that people can opt out and still use the service. It 
just--how many people do that, because it affects your experience, and 
how much understanding there is around that I think is a separate 
question. But no, I'm not sure anyone would pay for social media, the 
same way that very few people pay for news these days.
    Amb. Kornbluh. I also--a lot of people talk about how the problem 
is that ad-
supported--the ad-revenue-supported model, and I think there's a lot to 
that. One response that you get is, well, if you want to constrain that 
in any way, you're going to hurt small businesses, and there's a lot of 
talk about the commercial implications. And I think one of the 
reasons--I just want to take a step back for a second. One of the 
reasons that the Cambridge Analytica scandal I think hit so hard was 
because it's one thing for these big murky data brokers to have 
information on my shoe size and my taste in shoes. I might prefer that 
they advertise better options to me on shoes, instead of the same pair 
of slippers that I bought 2 years ago that follow me around the 
internet. But when it comes to my political beliefs and my 
philosophical beliefs and they're inferring that and using that to 
micro-target propaganda at me, I think people felt very, very 
differently. And I think we haven't teased that out enough. And it's 
driven by the ad system, but there's no reason that the platforms need 
to treat those two in the same way, the commercial advertising and the 
political advertising.
    And Helen [sic; Elizabeth] Denham, the information commissioner in 
the U.K., has suggested even a pause in micro-targeting in the 
political space until we figure this all out. I don't know if that 
would pass First Amendment scrutiny here, but it's really interesting.
    And one of the things--Nina mentioned GDPR. One of the things that 
European law does is, it treats your political and philosophical views 
as sensitive information. So, theoretically, they're supposed to come 
to you and say, an opt-in basis, is it okay if I infer your 
philosophical views by the magazines that you subscribe to in order to 
micro-target propaganda to you? I've yet to see that question be asked 
of anybody, but theoretically----
    Ms. Jankowicz. It should be asked exactly that way. [Laughter.]
    Amb. Kornbluh. Exactly. Theoretically that should be a brake on 
some of this.
    But I do think it's useful--in the U.S. it's really difficult 
because we don't--we affirmatively don't want to burden political 
speech. But there has to be some way we can think about the whole ad-
revenue ecosystem in the political sphere, differently from are small 
businesses going to be able to target their users online?
    Mr. Chessen. So just a couple points on that, also. I mean, I think 
money generally is something we really need to take a close look at. 
You know, part of--there have been studies that showed that basically 
what drives engagement on some of these platforms is anger, right? And 
so in a lot of ways, that's what some of these algorithms are actually 
optimizing for, because it keeps you on the platform longer, then 
you're looking at more ads. There's also this phenomenon where there's 
certain actors who are pushing out disinformation, not because they 
necessarily care about the content or the substance of the 
disinformation, but because they're trying to basically earn ad 
dollars. And they're either trying to get the revenue from the clicks, 
or they're actually trying to drive you off of the platform to their 
own site, where they then essentially put adware slash spyware on your 
computer that then can track your behavior throughout the internet and 
then they can sell you information. So there's some malicious ad 
networks that these directly plug in to, and there's some 
disinformation actors, where there is this nexus--there is--I know one 
in particular where there's a nexus between the ideology but it's also 
a for-profit, money-making enterprise. Right? So I think we have to 
tease that out.
    We also have to look at individual choices here, because all of our 
individual choices are really dragging this system. We've all got 
addicted to free stuff on the internet. We all have gotten addicted to 
free news. And so the market and the systems have responded, and so 
basically when you have clickbait-driven ads and clickbait-driven 
revenue for news sites, you know, that's sort of eviscerated local 
media, it's eviscerated a lot of the editorial departments, and it's 
incentivized this sort of yellow journalism and clickbait-driven news. 
So we have to think about how we as individuals are actually 
incentivizing this.
    And I think the last thing to think about is, is I'm sort of 
intrigued by this idea that people are throwing around of the public 
utility for social, right? So if you think about why some of these 
public utilities came around for water or electricity, it's because 
those entities that were providing those services, their interests 
weren't necessarily directly in line with the users, and there were 
some negative incentives there. So maybe that's something we need to 
consider is, do we need some sort of new institution for democracy that 
basically serves this type of civic function? And it wouldn't 
necessarily be social media; it could be something that basically 
serves other functions, like connecting people better to government or 
enabling, you know, Members of Congress to better connect to their 
constituents.
    Mr. Massaro. So I thought my second question was not related and 
then you both brought up the EU, so the second question is: The EU 
approach--you know, they've taken a very proactive stance on a lot of 
these issues. What are the sort of positives and pitfalls of what's 
going on there, in your view?
    Ms. Jankowicz. Well, I think it's too early to say, really, what 
GDPR has done for privacy- and disinformation-related issues in the EU. 
But one thing that I have been looking at and I'm going to mess up the 
name--I forget exactly what it's called, but the EU in September signed 
with the social media companies essentially a code of conduct related 
to disinformation. And actually--was that just yesterday?--two days ago 
in the U.K. the nine parliamentarians or members of Parliament who 
convened for the DCMS [Department for Digital, Culture, Media and 
Sport] select committee also signed a related document. And I think 
that's something that prior to legislation coming forward should happen 
here, just setting the rules of the road, defining what we mean by 
disinformation, by hate speech, by all these things, and kind of 
identifying a common set of core values going forward that can govern 
the decisions that the United States makes legislatively. I think 
that's something to aspire to. We'll see if the social media 
companies--one of the clauses in this agreement they made with the EU 
is that they need to report on their activities related to take-downs, 
so we'll see next September if they actually do that and to what level 
of transparency they do.
    Amb. Kornbluh. As I'm sure you're aware, California passed its own 
privacy law that's modeled to some degree on GDPR and now there's talk 
about a Federal privacy law in the U.S. And I think there's going to be 
a lot of conversation then. As Nina said, it's too soon, really, to say 
about GDPR, in part because the enforcement actions haven't been taken 
yet, and so there's been a lot of complaints about the way some of the 
companies have been implementing GDPR, that they appear to give you 
choice, but the way the user interface is designed, it looks like you 
don't have a choice and so you click ``agree'' because you think that's 
the only way to get the service, when in fact that's not what the law 
says.
    So we'll see how the enforcement goes, and that should become clear 
so that we'll have some data points into how all of this is working and 
what makes sense and what doesn't before the Federal law is passed. And 
I think it will be really interesting to see how that debate goes and 
what happens between now and then. The California law isn't scheduled 
to come into effect for some time, so it gives us that window.
    Mr. Chessen. So I think, generally, looking at the EU approach, I 
think one of the things that's been really positive is the fact that 
they have taken a very broad multi-stakeholder, consultative approach 
toward these issues, so they had a high-level experts group that met 
for several months that produced a report. The EC then took that and 
actually put out some policy guidance. One of those pieces of guidance 
was for this code of practice, which they negotiated with the social 
media companies. There are some concerns that this could be--lead to 
regulation or legislation that could de facto regulate U.S. companies, 
so I think a lot of people are watching to see where this goes.
    But I think the lesson from the EU approach that we might take is I 
think we need to engage in a national conversation about these issues. 
And so since we're here at Congress, you know, one of the things that 
I've talked about is maybe Congress needs to convene a commission on 
data privacy, information security and disinformation, because I think 
we need to have a national conversation in this country about our data 
privacy practices. I think we need to have a conversation about a lot 
of these issues, about whitelisting, blacklisting, content controls, 
what's acceptable, do we want to change the business models for these 
companies? Do we need to regulate them to promote more innovation? This 
is not a conversation we're having in any sort of--you know, with a 
methodology or any sort of systematic way. And I think it's a 
conversation we need to have before we sort of rush in and regulate or 
create policy around this. And that's really what I see missing from 
the U.S. discussion.
    Mr. Toner. Thank you so much. At this point, I think we'd like to 
open up to any audience questions. So if you've got questions, I know 
we have a mic available. Did I see a hand come up?
    Questioner. Yes. I can try without a mic.
    Mr. Toner. You can try without a mic. [Laughs.] I can hear you.
    Questioner. Matt, just to your--[inaudible]. To your point about a 
commission, why haven't we seen tech executives sort of brought up to 
the Hill the way the cigarette company executives were in 1994 and 
really account in a much more comprehensive way for their sort of 
complicity in a lot of this? We've had that, obviously, piecemeal, but 
I think--I mean, I wonder why. Why has Congress not done that, do you 
think?
    Mr. Chessen. Well, I'm not going to speak for Congress. I mean, one 
thing that I can guess is because I think in the difference with the 
cigarette case is there was a sort of intentional, perhaps malicious 
activity involved and some intentional disinformation there. I think 
what you're seeing with the tech companies--it's not that they're 
malicious. I mean, there's a lot of fantastic people working in the 
tech industry--they're trying to build great products, they're trying 
to build products people use. There's actually a lot of great people 
who are very strong proponents of U.S. national security who work for 
Facebook and other companies. I think it's more that they didn't 
necessarily see these problems coming, like a lot of us didn't see 
these problems coming. And so I do think there needs to be a lot more 
accountability for, hey, now that you know that the problem's there, 
what are you doing about? Right? But I don't think it rises to the same 
level of, you know, sort of maliciousness or--it wasn't necessarily as 
problematic. That's just my personal take; you know, my colleagues 
probably have opinions as well.
    Amb. Kornbluh. Yes. I mean, just having been involved since the 
early regulatory discussions, there is this idea that this technology 
itself was pro-democratic and that there was no need for regulation 
because it was going to further the goals of democracy. It was instead 
of broadcast, which was, you know, concentrated, that it was--you know, 
everyone was a publisher, everyone was a speaker. It was going to give 
voice to the voiceless, power to the powerless. And as things have 
changed, as it's become more centralized, as our lives, our whole lives 
have moved on to the internet, I think we still have that image of the 
guy in his garage, and I think maybe we need to mature a little bit 
more and say, gee, if our campaigns are all taking place online, maybe 
we have to update our campaign finance laws. And if we're purchasing 
online, maybe we have to update our consumer protection laws. I think 
as a society we haven't taken the responsibility seriously enough.
    Ms. Jankowicz. Just briefly, I'll also add, I agree with everything 
that's been said and I think one of the reasons that we have been slow 
to kind of coagulate around this issue is because of how we came to it, 
through a very political lens, and I think it's really important to 
take a step back and de-politicize this because it's a question of 
democratic discourse. It's not partisan.
    Mr. Toner. Another--there you go, over there.
    Questioner. Is this good? Okay, sorry. [Laughs.] Growing up as a 
Millennial/Generation Z, however you want to go and classify that, I 
was able to see firsthand the way that social media is able to impact a 
generation. And one of the scary things that I have seen is that people 
are moving away from reading books and reading more legitimate news 
sources like The Wall Street Journal, so forth, and going more toward 
free, more interesting content, I guess, on social media. So I want to 
know--and to me, the way that I see it is almost trading knowledge for 
information. So I want to know, are the platforms partially themselves 
responsible for creating this problem by giving us too much information 
than what we're able to process and creating more extremist content by 
that?
    Mr. Toner. Sorry, could you give us your name and affiliation?
    Questioner. Sure.
    Mr. Toner. I know this guy over here so I can--[laughter]--I can 
get it afterward. But----
    Questioner. I'm Jake Hannigan, working for Congressman Tom 
O'Halleran of Arizona's First District.
    Amb. Kornbluh. I mean, there's been a lot of work by folks who are 
looking at--to applying different sociology, anthropologies, psychology 
to what's happening on the internet, and the platforms themselves are 
starting to take this really seriously, so you'll notice that you're 
now getting reports about how much time you've spent online. You know, 
that's still a very blunt instrument; it's not telling you what you 
spent your time doing. But I think there's starting to be more 
awareness of this, just how many hours people are spending. What's the 
impact on kids? You know, what's our impact on delayed gratification if 
everything's a click?
    My kids, I had them watch one of these former Google guys who's 
done this whole presentation about what notifications does to you and 
how it trains your brain. And my kids are very loath to take any of my 
advice but they watched this and they turned off all their 
notifications. I think there's starting to be an awareness, but not 
nearly enough. I think it's a really interesting question.
    Mr. Chessen. I would answer that by just saying yes. I mean, I 
think that the technology is an enabler of all of us getting 
information overload and having short attention spans. I mean, if you 
just look at a news feed, right--so whether you--take your news app. 
Right? So it used to be that you would read a newspaper and the 
newspaper had a set amount of content, and when you were done with the 
newspaper, you put it aside and you were done. News feeds basically are 
endless, right? You keep reading, you keep reading. So that encourages 
behavior where you would scroll and scan and have much less detailed, 
in-depth engagement with things. And that sort of trains us in how we 
consume things.
    I think some other interesting factors are just, you know, the fact 
that it was explained to me once when someone was talking about why 
their kids were using Snapchat and just exchanging images with each 
other. And it was explained to them, well, that's how they're talking; 
they're actually communicating using that. And so, if you don't 
understand meme culture and you don't understand how much information 
can be spread during memes, which is just an image sometimes with text 
with it, you know, that drove a lot of sort of the expression during 
the 2016 campaign. You're seeing it drives a lot of expression online. 
And this is around this idea, you know--you mentioned the images about 
sharia law in Paris. Right? I think that was less about people actually 
believing that those things were credible and more about the posture. 
Right? And so this is what you're seeing a lot more of now, and I think 
this is driven by technology, is it's not so much the content, the 
substance; it's actually the posture that that content or that meme or 
that image pushes out that reinforces someone's belief and identity.
    So you're seeing these very profound changes, you know, that are 
being driven somewhat by technology or enabled by technology. And I 
don't necessarily think we know exactly where this is going to go. When 
you start having AI systems producing a lot more content, images, TV 
shows, things like that, it's going to change this dynamic further. And 
so yes, pay attention in this space because I think there's going to be 
a lot of dynamic knowledge generated, but I think it's also something 
we need to pay attention to vulnerabilities in this space as well.
    Amb. Kornbluh. Can I just add one other thing? Because I don't want 
us to be all grim. There have been a couple of studies that have 
actually shown that there's an upside, too, for kids and for teens 
about social media. Vicky Rideout has done some amazing work, and there 
was just another study out really recently about how when kids are 
lonely they can find mental health services online.
    So, you know, again, I think sometimes it's not the technology, 
it's how it's used, how aware we are of how we're being manipulated and 
so on, and that it can be a really valuable--I know for me, I read the 
news all the time now, but I'm finding all kinds of specialized sources 
that I wouldn't have found otherwise. You know, the whole Me Too 
movement--people have talked about it, but just from a personal point 
of view, watching young women speak up has changed my perceptions of 
things. So I think there's a huge amount of good in this, but I think 
your generation is going to be so much more aware of its impact and 
it's going to be able, I hope, to mold it so we get more of the good 
and less of the bad.
    Questioner. Hi. Maria Yates [ph] from the Voice of America Russian 
Service.
    I just wanted to touch on Russian disinformation tactics. Do you 
see Russia being, indeed, less active because of the public scrutiny? 
Or do you see them developing new strategies or tactics for 
disinformation, developing--[inaudible]--in the future?
    Thank you.
    Ms. Jankowicz. As far as I'm concerned, a lot of the Russian 
disinformation that likely happened during the 2018 midterms has just 
not been located yet. If you think back to November, December 2016, we 
didn't know the extent of what was going on then. And I think it's been 
shown through the criminal complaints and indictments that Mueller's 
team has released that these efforts are ongoing and that they are--
because the rules and regulations on the platforms have changed, 
Russians and also other malign actors, including Iran and China, have 
been able to get around those regulations and be a bit more clever 
about how they are putting out their information operations.
    Mr. Chessen. I think the only thing I would add to that is, you 
know, Russia is not giving up the information game. I think they, 
maybe, are just going to be doing it in a way that is a little bit more 
savvy and isn't going to--isn't going to generate the obvious public 
blowback, but they're still committed to information operations. What I 
think also we need to pay attention to is that there a lot of other 
actors who have learned from how Russia behaved and a lot of their 
tactics, and those actors are now adopting those tactics. There's a lot 
of people who are more worried about domestic actors now pushing out 
disinformation than they are about some of the international actors. So 
that's particularly concerning.
    Mr. Toner. We do have time for just a couple more questions, if 
there are out there.
    Questioner. Thank you. [Inaudible.]
    I had a followup to my--[inaudible]--question. If we think of 
Facebook as a social network from, like--[inaudible]--and now it is 
this big company moving to the news gig, do you think maybe Facebook 
moved too fast or maybe wasn't supposed to go on that market? And 
what's your stand on other social networks? Should they go to the news 
gig, too, or no?
    Mr. Toner. Sorry, just to clarify, you said the news becoming kind 
of a media----
    Questioner. Yes, I wanted to----
    Mr. Toner. ----or like a news outlet?
    Questioner. Yes. Yes, do you think that maybe it was really a 
mistake of Facebook to go that fast to the news market?
    Mr. Toner. Market, right.
    Questioner. Yes.
    Amb. Kornbluh. I'm troubled by what's happened--[laughs]--to the 
press online and I'm not sure that--you know, I'm not sure that I would 
blame Facebook as much as I would blame society for not thinking more 
about this. But, you know, a lot of these outlets felt the only way 
they could--they needed to go where the eyeballs were; the eyeballs 
were online. They started to go online but they lost--as I was saying 
before, they lost a lot of the information that lends to their 
credibility. And so you've had this flattening where--and this due to a 
lot of causes but where the mainstream news has gotten less credible, 
and some of these conspiracy sites have gained by looking like normal 
press outlets. They've gained credibility. And that's just really 
unfortunate.
    And obviously there have been a lot of causes that have been 
leading to that, but if you think about in the physical world where you 
had a newsstand and maybe the tabloids were separated, maybe they were 
in a different place behind the checkout counter or they were in the 
back of the kiosk, and now it's all muddled together. I mean, you don't 
even know if it's an opinion piece from The Wall Street Journal or a 
news piece when you see it online. So all of that, that framework that 
we had in our brains that allowed us to trust a piece of news, we're 
now realizing we have less trust, but we also are still--the remaining 
trust we have we're attaching to these other outlets that are just 
conspiracy sites, so it's really troubling.
    And as Nina laid out, there's this effort to try to dial some of 
that back by Facebook where they're emphasizing your friends and family 
in your feed instead of news, but I think we have--we've created quite 
a mess and it's going to be really hard to get out of it.
    Ms. Jankowicz. One small anecdote that I'll relay from a recent 
conversation I was involved in with Facebook and a number of European 
governments: One of the advisers to a prime minister of an Eastern 
European government stood up and asked the representative from Facebook 
what--this is analogous to the news platforms but also, you know, 
information coming from governments--he said, Since you changed your 
algorithm, the content that we need to deliver to our constituents is 
no longer getting the engagement that we would hope that it gets. Are 
we expected to buy ads to reach our constituents? And the Facebook 
representative actually suggested that this adviser to a prime minister 
create a Facebook group in order to reach their constituents, because 
that was prioritized in the algorithm. And I think it's really crazy 
that legitimate information from governments, from news sources is 
being demoted in order to just kind of feed this engagement mechanism 
on Facebook. And I don't think they've really thought that through, 
that, you know, people might be fed more and more content from Ariana 
Grande rather than their elected officials. So it's something I agree 
with you that they probably moved too fast in that scenario.
    Amb. Kornbluh. But I do like what Matt was saying and I've been 
thinking about that as well: What's our civic infrastructure? You know, 
it's one thing for us to complain, it's another thing for us to think 
about, what do we want to actually see? What are the positive 
infrastructures that we want to see? And people are just starting to 
put that together and think about that. And then how do we get that--
how do we make sure that that actually gets eyeballs, that's attractive 
enough for people to actually go on to it--so what's the PBS or the C-
SPAN or whatever your analogy is?
    Mr. Toner. It's in some ways a problem of curation, which is what 
you talked about--you know, that you know what you're getting with The 
New York Times, you know that it's been looked at by an editorial staff 
and positioned correctly, where the bad stuff has been thrown out and 
culled. And you don't have that----
    Amb. Kornbluh. It's not so much that you know, gee, I know that 
editor and I trust him, but you know what their standards and 
procedures are.
    Mr. Toner. Exactly. And their reputation's on the line. Yes.
    Amb. Kornbluh. Right. So, you know, I'm sitting over here looking 
at Yahoo! News and there's ProPublica. There are a bunch of very 
credible outlets that have come online since we've been reading all our 
press online. You don't have to be a physical newspaper, but you need 
to know what procedures they use.
    Mr. Toner. Agreed.
    Amb. Kornbluh. Yes. Yes, yes, yes. So I think that kind of 
credibility--how do we establish that kind of credibility so that we 
can have a public discourse online? And that's going to--you know, we 
have to think about things like--you know, government has thought of 
itself as a provider of certain facts. You know, in the Constitution 
you find reference of the census. The government has put out scientific 
studies and facts. You know, how are we going to help people to find 
that and to have this fact base I think is a real interesting 
challenge.
    Mr. Toner. Okay. Go ahead, Kyle.
    Questioner. Thank you all. I'm Kyle Parker, Helsinki Commission.
    On one level, there's an optimism I hear up here. But it's not 
where I think the optimism should be. I sense and take this view that 
politicians meddling in political things, don't trust them, don't trust 
the government, you know, don't trust Facebook either, but probably 
trust Facebook more than the government, and don't want the government 
to wreck things.
    A lot of these proposals for solutions sound to me like so much 
manipulation to correct other manipulation. I don't trust it, and I 
feel like the mess you're talking about has a real bright side and I 
hope it gets even messier. I wonder if we're not simply reacting to 
what a democratic or a more democratic free-for-all public square 
actually looks like. And it's uncomfortable to us, particularly for 
those of a generation that watched Cronkite at 7 o'clock and got their 
news delivered that way.
    Why are we so naive? Technology is not a good. Why this misplaced 
faith in linear progress? To me it's about time that the scales fall 
from our eyes. As that happens, it seems to me the real problem is 
civic hygiene. Voting is serious business. And I don't trust The New 
York Times' news or any of them. There's opinion involved in creating 
the news.
    So I'm concerned that these measures that aim to try to steer or 
control or, as you mentioned, make news appealing. Yet again, more 
Madison Avenue tactics to package information and get this to the 
electorate in a way that they'll actually click on it or watch it--is 
perhaps--creating of more problem, because the internet being what it 
is--like you say, you ban something, you drive traffic to it, there's 
mirror sites. You can't get rid of it.
    Maybe the best solution is for people to think about civic hygiene, 
improve critical thinking skills. Don't trust anything you read 
anywhere. Be skeptical. Get off the internet and stop flattening your 
civic engagement to this one-dimensional online medium and get out and 
talk to your friends and neighbors. Be active in your local community 
--this focus on hacking elections to me is an unhelpful reduction of 
civic engagement to showing up for, what, a half an hour every few 
years to vote? You call that civic engagement? There's a lot more to 
civic engagement. To me our outrage just reeks of establishment fury.
    Here we are in Washington, working for politicians. If you're a 
politician, elections loom large in your mind. Well, they don't loom 
nearly as large in the minds of the American people. There's a whole 
lot more to this country and to real civic engagement. Yet I see these 
bills come across my desk. I saw one last Congress; I think it was a 
hundred million dollars to the Department of Homeland Security to 
educate Americans about consuming news. This is frightening, Orwellian, 
even. I don't want the government and politicians in this space. I want 
more of the public square in this place, more of a free-for-all. We're 
the ones who are ultimately the problem. We're the market for this 
clickbait and we're the ones who click on it. So what do we expect from 
Facebook and others? They do exactly what they're designed to do and 
they do it well.
    Amb. Kornbluh. So the one thing that I'll throw back at you is 
where I come down again and again and again is the role for government 
is transparency, that you can't--you can get all the education and 
literacy that you want, but if you don't know if you're dealing with a 
bot, if you don't know how many actual people endorsed this and it 
looks like it's a lot more than it really is, if you think that 
Blacktivist is an actual, you know, group of likeminded people but it's 
actually the Russians, if you don't know that this travel ad is being 
sponsored by somebody who has a conflict of interest, then you can't 
look out for yourself.
    So I don't think of that as a real public square if you don't have 
the information, if you don't know what's going on. And people--
unfortunately, the internet, which we thought of as this great 
transparent voice of the voiceless, there's far too much opportunity 
for fraud, really. So I come down on, isn't there a role for the 
government in transparency? And the Supreme Court, even Scalia, has 
said that in political speech there's a role for transparency. So I 
think that's a role for government. The government isn't saying what's 
true, what's not true, what's good, what's bad, what should be 
whitelisted or not; you know, they're just saying let's have--let's 
give you more information about what you're seeing online. I think that 
can help a lot.
    Mr. Chessen. So, actually, a lot of what you said resonates with 
me. I think the way I would conceptualize what you're talking about 
is--taking it back to the Enlightenment again--is that you've got a lot 
of institutions that are being run by elites. That's how we've run 
things for 200 years. And now you have hyper-empowered individuals who 
are using technology to push out a lot of ideas that are challenging 
those elites and institutions. I think all of that is very healthy and 
I think--I am a firm believer in free expression in the marketplace of 
ideas, and people have a right in this country to put out 
disinformation, if they want to.
    Where I think it goes off the rails, and what we have to worry 
about, is when it turns into coordinated, manipulative activity using 
technology. Right? And so I think that's where we start to draw the 
line. It basically goes to what Karen and Nina have said. You know, 
it's basically when you have groups of people that are using techniques 
from human cognition and human psychology and the technology tools and 
then hacking the features of those technology tools to basically 
manipulate people without their knowing they're being manipulated, 
that's where it becomes a problem.
    So I--but I totally agree that I think we are really missing out--
and Karen talked about this, a lot of the positive aspects of 
technology and what it's doing for society. I think we can't lose sight 
of that focus and that vibrancy and the fact that this diversity of 
ideas is a good thing and we don't need to say that this is the death 
of the Enlightenment, we need to create Enlightenment 2.0.
    I would also caution that I think there's a difference between 
promoting critical thinking and promoting people having sort of a 
questioning eye, versus just saying don't believe anything you see. 
Right? That's actually pushing us into this post-truth world. That's 
what adversaries like Russia want, right? They want us in this post-
truth world, because in that world a fact is just whatever you can 
convince people of, and then countries that may not be able to compete 
with the United States diplomatically, economically, militarily, but 
can compete on an information basis, they have outsized power. Right?
    And so that's the real danger. And like I said, that post-truth 
world, where you don't believe anything, in that world people tend to 
retreat into their tribal identities; they tend to retreat into their 
little window of what they believe about the world and they interpret 
everything through that because they just don't know what to believe.
    This is really fundamentally a trust issue. Right? And this gets 
back to the transparency. People need to know what they can trust. They 
need to know where the information's coming from, who's doing it, and 
they need to be able trust that the information they're getting is 
being provided to them in a way where they're not manipulated.
    Questioner. Just to clarify: The point is not ``don't believe 
anything you see'' but it's ``don't believe anything you see without 
constant critical reassessment.'' So it's not a one-time thing where 
[you] trusted this paper 20 years but everything that's coming in is 
vetted through a notion of is--you know, a critical----
    Mr. Chessen. Keep your brain on.
    Questioner. Right. [Laughter.]
    Mr. Toner. I think we're going to have to conclude on that very 
good exchange. But I can't thank our three panelists enough for really 
a very illuminating discussion. I've learned a lot today. I hope all of 
you have. I think this is a really useful exchange. And I hope, as I 
said, it's just the beginning.
    But thank you so much for coming today. I appreciate it. Thank you 
on behalf of the Helsinki Commission. [Applause.]
    [Whereupon, at 12:04 p.m., the briefing ended.]

                                         [<all]
 

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
